Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




     REVIEW OF MEDICARE
    OUTPATIENT BILLING FOR
      SELECTED DRUGS AT
    METHODIST HEALTHCARE –
      MEMPHIS HOSPITALS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General

                                                       August 2012
                                                      A-09-12-02022
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services administers the program.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered.

Methodist Healthcare – Memphis Hospitals (Methodist Healthcare) is an acute-care hospital
located in Memphis, Tennessee. Based on data analysis, we reviewed $435,026 in Medicare
payments to Methodist Healthcare for 82 line items for injections of selected drugs that
Methodist Healthcare billed to Medicare during our audit period (January 1, 2008, through
April 30, 2011). These line items consisted of injections for doxorubicin hydrochloride
liposome, immune globulin, cetuximab, rituximab, epoetin alfa, bortezomib, and adenosine.

OBJECTIVE

Our objective was to determine whether Methodist Healthcare billed Medicare for injections of
selected drugs in accordance with Federal requirements.

SUMMARY OF FINDINGS

For 60 of the 82 line items reviewed, Methodist Healthcare did not bill Medicare in accordance
with Federal requirements:

       • For 58 line items, Methodist Healthcare billed the incorrect number of units of service.

       • For two line items, Methodist Healthcare used the incorrect HCPCS code.

As a result, Methodist Healthcare received overpayments totaling $177,834. Methodist
Healthcare attributed the overpayments to billing system and clerical errors.

RECOMMENDATIONS

We recommend that Methodist Healthcare:

   •     refund to the Medicare fiscal intermediary $177,834 in identified overpayments and

   •     ensure compliance with Medicare billing requirements.


                                                  i
METHODIST HEALTHCARE COMMENTS

In written comments on our draft report, Methodist Healthcare concurred with our
recommendations and provided information on actions that it had taken to address the
recommendations. Methodist Healthcare’s comments are included in their entirety as the
Appendix.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicare Requirements for Outpatient Claims .............................................1
              Selected Drugs ...............................................................................................1
              Methodist Healthcare – Memphis Hospitals ..................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          FEDERAL REQUIREMENTS ..................................................................................4

          INCORRECT BILLING ............................................................................................5

          RECOMMENDATIONS ...........................................................................................5

          METHODIST HEALTHCARE COMMENTS .........................................................6

APPENDIX

          METHODIST HEALTHCARE COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Requirements for Outpatient Claims

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 1

Selected Drugs

The drugs we reviewed in this audit were doxorubicin hydrochloride (HCl) liposome, immune
globulin, cetuximab, rituximab, epoetin alfa, bortezomib, and adenosine.

Doxorubicin Hydrochloride Liposome

Doxorubicin HCl liposome is an injectable drug used to treat metastatic ovarian cancer and
AIDS-related Kaposi’s sarcoma. Medicare requires providers to bill one service unit for each
10-milligram injection of doxorubicin HCl liposome. The HCPCS code for this drug is J9001
and is described as “Injection, doxorubicin hydrochloride, all lipid formulations,
10 [milligrams].”

Immune Globulin

Immune globulin is an injectable drug used to treat primary immune deficiency conditions (e.g.,
chronic inflammatory demyelinating polyneuropathy). Medicare requires providers to bill one
service unit for each 500-milligram injection of immune globulin. The HCPCS code for this
drug is J1566 and is described as “Injection, immune globulin, intravenous, lyophilized (e.g.
powder), not otherwise specified, 500 [milligrams].”

Cetuximab

Cetuximab is an injectable drug used to treat cancers of the colon and rectum. Medicare requires
providers to bill one service unit for each 10-milligram injection of cetuximab. The HCPCS
code for this drug is J9055 and is described as “Injection, cetuximab, 10 [milligrams].”


1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                        1
Rituximab

Rituximab is an injectable drug used to treat non-Hodgkin’s lymphoma, chronic lymphocytic
leukemia, and symptoms of adult rheumatoid arthritis. Medicare requires providers to bill one
service unit for each 100-milligram injection of rituximab. The HCPCS code for this drug is
J9310 and is described as “Injection, rituximab, 100 [milligrams].”

Epoetin Alfa

Epoetin alfa is an injectable drug used to treat anemia. Medicare requires providers to bill one
service unit for each 1,000 units of epoetin alfa. The HCPCS code for this drug is J0885 and is
described as “Injection, epoetin alfa (for non-esrd [end-stage renal disease] use), 1000 units.”

Bortezomib

Bortezomib is an injectable drug used to treat multiple myeloma and mantle cell lymphoma.
Medicare requires providers to bill one service unit for each 0.1-milligram injection of
bortezomib. The HCPCS code for this drug is J9041 and is described as “Injection, bortezomib,
0.1 [milligrams].”

Adenosine

Adenosine is an injectable drug used to treat supraventricular tachycardia. Medicare requires
providers to bill one service unit for each 30-milligram injection of adenosine. The HCPCS code
for this drug is J0152 and is described as “Injection, adenosine for diagnostic use,
30 [milligrams].”

Methodist Healthcare – Memphis Hospitals

Methodist Healthcare – Memphis Hospitals (Methodist Healthcare) is an acute-care hospital
located in Memphis, Tennessee. Methodist Healthcare’s claims are processed and paid by
Pinnacle Business Solutions, Inc. (Pinnacle), the Medicare Part A fiscal intermediary.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Methodist Healthcare billed Medicare for injections of
selected drugs in accordance with Federal requirements.

Scope

We reviewed $435,026 in Medicare payments to Methodist Healthcare for 82 line items that we
selected as potentially at risk for billing errors during our audit period (January 1, 2008, through
April 30, 2011). These line items consisted of:




                                                  2
      •    52 line items for doxorubicin HCl liposome totaling $294,496,

      •    17 line items for immune globulin totaling $91,911,

      •    4 line items for cetuximab totaling $17,553, 2

      •    2 line items for rituximab totaling $15,694,

      •    2 line items for epoetin alfa totaling $7,641,

      •    3 line items for bortezomib totaling $6,140, and

      •    2 line items for adenosine totaling $1,591.

We identified these payments through data analysis.

We did not review Methodist Healthcare’s internal controls applicable to the 82 line items
because our objective did not require an understanding of controls over the submission of claims.
Our review allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from the National Claims History file for our audit period, but we did not assess
the completeness of the file.

Our fieldwork included contacting Methodist Healthcare, located in Memphis, Tennessee.

Methodology

To accomplish our objective, we:

      •    reviewed applicable Federal laws, regulations, and guidance;

      •    used CMS’s National Claims History file to identify paid Medicare claims for
           doxorubicin hydrochloride HCl liposome, immune globulin, cetuximab, rituximab,
           epoetin alfa, bortezomib, and adenosine during our audit period;

      •    used computer matching, data mining, and analysis techniques to identify line items
           potentially at risk for noncompliance with Medicare billing requirements;

      •    identified 82 line items totaling $435,026 that Medicare paid to Methodist Healthcare;

      •    contacted Methodist Healthcare to determine whether the information conveyed in the
           selected line items was correct and, if not, why the information was incorrect;

      •    reviewed documentation that Methodist Healthcare furnished to verify whether each
           selected line item was billed correctly;

2
    For cetuximab, Methodist Healthcare billed Medicare in accordance with Federal requirements.


                                                          3
   •   calculated overpayments using corrected payment information processed by Pinnacle;
       and

   •   discussed the results of our review with Methodist Healthcare.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For 60 of the 82 line items reviewed, Methodist Healthcare did not bill Medicare in accordance
with Federal requirements:

    • For 58 line items, Methodist Healthcare billed the incorrect number of units of service.

    • For two line items, Methodist Healthcare used the incorrect HCPCS code.

As a result, Methodist Healthcare received overpayments totaling $177,834. Methodist
Healthcare attributed the overpayments to billing system and clerical errors.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes.

Section 1833(e) of the Act states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 4,
section 20.4, states: “The definition of service units … is the number of times the service or
procedure being reported was performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for [drugs] make certain that the reported units of service of the reported HCPCS code are
consistent with the quantity of a drug … that was used in the care of the patient.” If the provider
is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here HCPCS is
required, units are entered in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the code is 50 mg, and 200 mg are provided, units are shown
as 4 ….”




                                                 4
Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

INCORRECT BILLING

For 58 line items reviewed, Methodist Healthcare billed Medicare for the incorrect number of
units of service:

   •   For the 52 line items for doxorubicin HCl liposome, Methodist Healthcare billed the
       incorrect number of units of service. Rather than billing from 4 to 9 service units,
       Methodist Healthcare billed from 8 to 18 service units. The incorrect billing resulted in
       overpayments totaling $156,347.

   •   For two line items for immune globulin, Methodist Healthcare billed the incorrect
       number of units of service. Rather than billing 80 and 96 service units, Methodist
       Healthcare billed 400 and 192 service units, respectively. The incorrect billing resulted
       in overpayments totaling $10,946.

   •   For one line item for rituximab, Methodist Healthcare billed the incorrect number of units
       of service. Rather than billing 6 service units, Methodist Healthcare billed 12 service
       units. The incorrect billing resulted in an overpayment of $3,206.

   •   For the two line items for adenosine, Methodist Healthcare billed the incorrect number of
       units of service. Rather than billing 3 and 6 service units, Methodist Healthcare billed
       17 and 12 service units, respectively. The incorrect billing resulted in overpayments
       totaling $1,093.

   •   For one line item for bortezomib, Methodist Healthcare billed the incorrect number of
       units of service. Rather than billing 35 service units, Methodist Healthcare billed
       70 service units. The incorrect billing resulted in an overpayment of $997.

For the two line items for epoetin alfa, Methodist Healthcare billed Medicare using the HCPCS
code for the administration of epoetin alfa rather than using the HCPCS code for the
administration of darbepoetin alfa, the drug actually administered. The incorrect billing resulted
in overpayments totaling $5,245.

In total, Methodist Healthcare received overpayments of $177,834. Methodist Healthcare
attributed the overpayments to billing system and clerical errors.

RECOMMENDATIONS

We recommend that Methodist Healthcare:

   •   refund to the Medicare fiscal intermediary $177,834 in identified overpayments and

   •   ensure compliance with Medicare billing requirements.


                                                5
METHODIST HEALTHCARE COMMENTS

In written comments on our draft report, Methodist Healthcare concurred with our
recommendations and provided information on actions that it had taken to address the
recommendations. Methodist Healthcare’s comments are included in their entirety as the
Appendix.




                                              6
APPENDIX
                                                                                             Page 10f2


      APPENDIX: METHODIST HEALTHCARE COMMENTS 





June 7, 2012

Via Electronic Transmission       iman.zbinden@oig.hhs.gov

Ms. Lori A. Ahlstrand
Department of Health & Human Services
Office of Inspector General
Office of Audit Services, Region IX
90-7 tll Street, Suite 3-650
San Francisco, CA 94103

       Re:      Report number A-09-12-02022

Dear Ms. Ahlstrand:

       This letter is in response to your draft report dated May 24, 2012 entitled Re'view
  Medicare Outpatierzt Billing for Selected Drugs at Methodist Healthcare - Memphis
Hospitals.

      The draft report recommends that Methodist Healthcare - Memphis Hospitals
CMHMH") refund identified overpayments, and that MHMH ensure compliance with
Medicare billing requirements. MHMH concurs with the recommendations and has
already refunded identified overpayments and has taken the appropriate measures to
prevent similar errors from occurring in the future.

       The Office of Inspector General's ("OIG") recommendations and the corrective
action taken are as follows:

       1. 	 The OIG reconnnends that MHMH refund to the Medicare fiscal intermediary
             $177,834 in identified oDerpayments.

             MHMH has already refunded the $177,834 identified by the OrG to Pinnacle
             Business Solutions, Inc.




  1211 Union Avenue· Memphis, Tennessee 38104 • www.methodisthealth.org
                                                                                            Page 2 of2




Ms. Lori A. Ahlstrand
June 7, 2012
Page 2


         2. 	 The OIG recommends that MHMH ensure compliance with Medicare billing
              requirenlents.

              Corrections were made to the interface between the pharmacy electronic
              formulary database and the billing charge master to ensure that the
              conversion factor resulted in the appropriate quantity being calculated for
              proper billing.

       Additionally/ MHMH Pharmacy Department audited all J coded medications in
the pharmacy database to ensure that this error was not duplicated and MHMH Patient
Financial Services Department conducted further audits of claims to determine that the
same error did not occur on the accounting side on any other claims than those
identified by the OIG.

       MHMH takes its compliance obligations very seriously and is committed to
ensuring that it maintains an effective compliance program. We thank you for the
assistance and courteousness that was received from the OIG staff in the review
process.

Sincerely,



Chris McLean
Chief Financial Officer




Dala/ Lgl/Letter/ LH/ OIG Response Ahlstrand 060712.doc
